OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SIERRA
LEONE’S MANAGEMENT OF
ITS TRANSITION STRATEGY

AUDIT REPORT NO. 7-636-06-001-P
December 22, 2005




DAKAR, SENEGAL
Office of Inspector General


December 22, 2005

MEMORANDUM

TO:                  Mission Director, USAID/Sierra Leone, Jack Winn

FROM:                Regional Inspector General/Dakar, Lee Jewell III /s/

SUBJECT:             Audit of USAID/Sierra Leone’s Management of Its Transition Strategy
                     (Report No. 7-636-06-001-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains two recommendations to which you agreed in your response to the draft
report. Based on your plans in response to the audit findings, management decisions have
been reached on both of the recommendations. However, the two recommendations will
remain open until the planned actions are completed by the Mission. Please coordinate final
actions on these recommendations with USAID’s Audit Performance and Compliance Division
within the Management Bureau’s Office of the Chief Financial Officer (M/CFO/APC).

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ....................................................................................................................... 2

Audit Objectives .................................................................................................................. 3

Audit Findings................................................................................................................... 4

Did USAID/Sierra Leone manage the transition
strategy from Phase 1 to Phase 2 efficiently?.................................................................... 4

Did USAID/Sierra Leone’s transition strategy
achieve its intended results? .............................................................................................. 6

     Better Documentation of Monitoring
     Activities Needed .......................................................................................................... 8

     Verification of Annual Report Data
     Should Be Conducted and Documented ...................................................................... 9

Evaluation of Management Comments ........................................................................ 11

Appendix I – Scope and Methodology ......................................................................... 12

Appendix II – Management Comments ........................................................................ 14
SUMMARY OF RESULTS
The objectives of this audit were to determine if (1) USAID/Sierra Leone managed its
transition strategy from Phase 1 to Phase 2 efficiently; and (2) USAID/Sierra Leone’s
transition strategy achieved its intended results. (See page 3.)

For audit objective 1, we concluded that USAID/Sierra Leone effectively managed the
extension of its transition strategy from Phase 1 (fiscal year (FY) 2001-2003) to Phase 2
(FY 2004-2006), despite some delays in completing procurement instruments and a
monitoring plan. The Mission followed the necessary USAID guidance which included
assessing the design and results of the Phase 1 strategy to make recommendations for
the follow-on program, developing a new strategy that incorporated the results of the
assessments, and performing the required administrative procedures. (See pages 4-6.)

For audit objective 2, we concluded that USAID/Sierra Leone’s transition strategy
achieved its intended results based upon review and analysis of FY 2004 and FY 2005
results as of June 30, 2005, our observations of the impact of program activities on the
targeted communities, and viewpoints from program recipients and community leaders.
However, although Special Objective Team Leaders actively monitored partner activities,
they did not systematically document and maintain on file key monitoring activities such
as site visits and verification of implementing partners’ data which could result in
important program information not being available to current or future Mission
management. Furthermore, the Special Objective Teams and Program Office did not
review or cross-check the data reported in the FY 2005 Annual Report which resulted in
two indicator results to be materially overstated. Additionally, there was a lack of
documentation to support calculations and assumptions used to develop results included
in the Annual Report. (See pages 6-10.)

This report includes two recommendations to assist USAID/Sierra Leone in its
monitoring and reporting activities. We recommended that USAID/Sierra Leone (1)
develop specific procedures to require that the Special Objective Teams document key
contacts with implementing partners including visits to monitor activities and validate
data; and (2) develop specific procedures to require the Special Objective Teams and
Program Office to cross-check and verify reported data and to document assumptions,
calculations, and verifications in the program files. (See pages 9 and 10.)

USAID/Sierra Leone agreed with all of the findings and recommendations and based on
planned actions to be taken by the Mission, management decisions have been reached
on the two recommendations. However, the two recommendations will remain open until
final actions are taken by USAID/Sierra Leone and coordinated with USAID’s Audit
Performance and Compliance Division within the Management Bureau’s Office of the
Chief Financial Officer (M/CFO/APC). (See page 11.)




                                                                                       1
BACKGROUND
Sierra Leone is still recovering from the effects of a decade-long civil war that led to the
loss of many lives and greatly disrupted the country’s economic and social infrastructure.
While the formal program to disarm, demobilize and reintegrate ex-combatants has
ended, completing the more broadly defined reintegration process for the country is
continuing. This process requires people from all sides in the conflict—whether they
were combatants, displaced, or otherwise victimized—to constructively engage in
rebuilding their lives and communities.

The United States has several important interests at stake in Sierra Leone. Having
provided over $300 million annually in support of the U.N. Peacekeeping Forces, it is in
the U.S. interest to reinforce the gains achieved over the years to avert the need for
future investment of this magnitude. In addition, the United States has a humanitarian
interest in preventing a recurrence of the lawlessness and brutal violence that produced
thousands of deaths, injuries, assorted war crimes, and hundreds of thousands of
refugees. Furthermore, Sierra Leone’s stability is also intertwined with that of
neighboring countries where armed cross-border factions continue to be a destabilizing
factor in the sub-region, and maintaining peace and security in Sierra Leone will
contribute to regional security.

To address these challenges, USAID implemented a transitional strategy for the period
of fiscal years (FY) 2001-2003 that had the overarching goal of national peace, security
and stability. The FY 2001-2003 strategy was composed of two special objectives:
Special Objective (SpO) 1 focused on advancing the reintegration process of war-torn
populations in targeted areas, and SpO2 focused on strengthening democratic
governance. The two SpOs have received $15,211,080 and $5,996,525 in funding,
respectively during this first phase.

In 2003, USAID/Sierra Leone was approved to extend the transition strategy into a
second phase to cover fiscal years 2004-2006, continuing to focus on the consolidation
of peace, security and stability, with the same two SpOs as in the first phase. Under the
Reintegration Objective (SpO1), USAID will continue to provide social, economic, and
physical support to encourage resettlement and reintegration in war-torn communities.
As reintegration advances and communities become more economically and socially
viable, there is a corresponding need for these communities to develop a capacity to
make political decisions and build the practices of a democratic society. This will be
achieved through the continuation of USAID’s Democracy Objective (SpO2) whose aim
is to broaden participation of local communities and interest groups in key national and
local issues, such as the utilization of Sierra Leone’s diamond resources, the promotion
of social services, and the limitation of corruption.

USAID assistance targets its geographic focus to the three eastern districts of Kono,
Kailahun, and Koinadugu, which were the last areas of the country to disarm and the
most affected by the war. The town of Tongo Fields and more recently, Freetown, were
added as new key areas considered potential flashpoints of destabilization.

USAID/Sierra Leone’s Transition Program is managed out of USAID/Guinea, with one
U.S. Direct Hire assigned to Conakry to coordinate the program and oversee one U.S.


                                                                                          2
Personal Services Contractor and three Foreign Service National employees based in
Freetown.



AUDIT OBJECTIVES
In accordance with its fiscal year 2005 audit plan, the Regional Inspector General/Dakar
performed this audit to answer the following audit objectives:

   (1) Did USAID/Sierra Leone manage the transition strategy from Phase 1 to Phase 2
       efficiently?

   (2) Did USAID/Sierra Leone’s transition strategy achieve its intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS
Did USAID/Sierra Leone manage the transition strategy from
Phase 1 to Phase 2 efficiently?
Despite some delays in completing procurement instruments and a monitoring plan,
USAID/Sierra Leone effectively managed the extension of its transition strategy from
Phase 1 (fiscal year (FY) 2001-2003) to Phase 2 (FY 2004-2006), following the
necessary USAID guidance. This included assessing the design and results of the
Phase 1 strategy to make recommendations for the follow-on program, developing a
new strategy that incorporated the results of the assessments and performing the
required administrative procedures.

According to the Africa Bureau’s Guidance, How to Transition from an Old to a New
Strategy, the first step in transitioning to a new strategy (or phase) is to analyze past
performance. USAID/Sierra Leone began the extension process in the last year of
Phase 1 by contracting with a team of two retired USAID Senior Foreign Service Officers
to conduct a formal assessment of Phase 1 program activities. The assessment
identified the strengths and weaknesses of the current program and made
recommendations for a follow-on program. The assessment team was also tasked with
making recommendations on how the Mission could incorporate a significant agricultural
emphasis into the Phase 2 strategy. According to USAID/Sierra Leone, this assessment
was a key source of information used to determine the focus and direction of the Phase
2 strategy.

Using the results of the Phase 1 assessment as a basis for designing and developing
Phase 2, USAID/Sierra Leone considered and incorporated many of the
recommendations made by the assessment team into the new strategy. However, the
Mission also took into account their own lessons learned from Phase 1 activities as well
as changes in the post-conflict environment of the country. As a result, and
appropriately, not all of the recommendations made by the assessment team were
incorporated into the Phase 2 strategy.           For example, the assessment team
recommended that a youth training and education program be continued under the
Phase 2 strategy but the Mission decided not to continue the program due to
demographic and social changes. Such training was originally provided as part of a
humanitarian program which included the provision of food. However, as stability spread
throughout the country, the population targeted for the training was returning to the
areas from which they were displaced to look for and obtain work. While the Mission
agreed that the program had made a positive impact, these societal changes would
make it difficult to deliver the program as designed; thus, the Mission did not support the
continuation of the program in its Phase 2 strategy.

In addition to the external Phase 1 assessment, USAID/Sierra Leone also conducted
various internal reviews and activities to guide the direction of the Phase 2 strategy. For
example, Mission staff stated that they held several planning and review sessions, as
well as a strategy planning retreat. During the planning retreat, the Mission critically
reviewed the design and results of the Phase 1 programs, assessed the factors shaping
future program direction, considered USAID-wide future plans as presented in the



                                                                                         4
Congressional Budget Justification, and brainstormed additional program possibilities.
The Mission further prepared a timeline, as recommended in the Africa Bureau’s
guidance, in order to aid Mission staff on the planning of the strategy extension. The
Mission also consulted with U.S. Embassy Freetown officials to provide feedback on the
USAID/Sierra Leone program. This facilitated the linkage of the strategy into the
Embassy’s Mission Performance Plan.               Furthermore, USAID/Sierra Leone
communicated and coordinated with other donors in the international community to
prevent the overlapping and conflicting of programs.

USAID/Sierra Leone also complied with USAID guidance in preparing various strategy
documents and performing administrative procedures. The Mission drafted the Phase 2
transition strategy document, and submitted a request for approval of the extension of
the transition strategy to USAID/Washington in accordance with Automated Directives
System (ADS) 201.3.11.3. After a presentation of the strategy by the Mission Director
and Program Officer in Washington and several communications addressing
USAID/Washington’s issues and concerns, the Assistant Administrator of the Africa
Bureau approved the extension of USAID/Sierra Leone’s Transition Strategy on
September 3, 2003.

Following the approval of the transition strategy extension, USAID/Sierra Leone worked
with the Acquisitions and Assistance Office at USAID/Guinea to develop solicitations for
the program activities to be conducted under the Phase 2 extension. The timeline
prepared during the planning process of the extension indicated that the Phase 2
activities would begin towards the end of calendar year 2004, and three cooperative
agreements were signed between October 2004 and January 2005. However, due to a
longer-than-expected negotiation phase during the procurement process and the ramp-
up time needed for the new Country Program Manager to get up to speed with the
programs, the last cooperative agreement was not signed until March 2005.

USAID/Sierra Leone expected that the implementing partners would be involved in the
development of the Performance Monitoring Plan (PMP) for Phase 2, but the later-than-
expected signings of the final cooperative agreement also delayed the development of
the PMP. Mission staff held in-house workshops in Conakry at USAID/Guinea and in
Freetown in January and February 2005 to begin developing the PMP by reviewing the
partners’ proposals and drafting program indicators. A PMP Workshop and follow-up
processes with implementing partners commenced in April 2005 where the Mission
shared the proposed indicators with the implementing partners and worked with them to
improve the indicators. The PMP, however, was not finalized at the time of our audit in
mid–September 2005, as some implementing partners were still gathering and
developing baseline data from the indicators. The partners were prepared to report on
the new indicators, though, in their September 2005 quarterly reports. Additionally,
USAID/Sierra Leone has scheduled Data Quality Assessments on the baseline data in
October 2005.

The audit team also noted that as program activities in Phase 1 came to a close, the
Mission was proactive in initiating the close-out process of the funding instruments, as
required by the Federal Acquisitions Regulations (FAR) 4.804 and ADS 202.3.10. As
standard procedure, the Acquisitions and Assistance Office begins the closeout process
within 3 months after the completion of a project. At the time of audit, 13 instruments
were in the close-out phase and within the required timeframe to be closed out. It was
determined that all those instruments required settlement of indirect cost rates. Per FAR


                                                                                       5
4.804, closeout of such instruments shall occur within 36 months of the month in which
the contacting officer receives evidence of physical completion.

Based on all of the above, the audit team concluded that USAID/Sierra Leone managed
the transition strategy from Phase 1 to Phase 2 efficiently and in compliance with
relevant USAID guidance and regulations.


Did USAID/Sierra Leone’s transition strategy achieve its
intended results?
Based on our review of reported results and of program activities, USAID/Sierra Leone’s
transition strategy achieved its intended results with some exceptions related to
monitoring and reporting activities. Although only 13 of 21 indicators achieved 90
percent or more of the planned results, we did not measure the Mission’s achievements
solely on these results. We also considered our first-hand observation of the programs
as well as the views of program recipients and community leaders which made it clear
that the goals and intent of the program were being met.

Our comparison of FY 2004 actual to planned results for 13 of 21 Phase 1 indicators
showed achievement levels of 90 percent or more. Specifically, achievement levels for
five of the six Strategic Objective level indicators were greater than 100 percent, with the
achievement level for the sixth indicator at 97 percent. For example, the achievement
level for the indicator measuring the number of communities peacefully co-existing was
111 percent. Similarly, the amount of revenues allocated to diamond-producing
communities from the Diamond Area Community Development Fund was much greater
than expected, with an achievement level for this indicator of 121 percent.

Achievement levels for five of the indicators fell in the 80 to 90 percent range – still fairly
remarkable given the post-conflict environment in which the program operated in FY
2004. For example one indicator measured the number of artisanal diamond mining
licenses issued by the government, an effort to develop a legal diamond trading industry
and reduce conflict diamond trading. The planned result for this indicator was 2,700
licenses but the actual results of 2,318 licenses fell short, representing an 86 percent
achievement level. According to the SpO Team Leader, the shortfall in the number of
licenses issued occurred because of the migration of some miners from the Kono and
Tongo Fields diamond mines areas to new areas where the government had not yet
established oversight that included the license requirement. Another indicator that fell
short of the target with an 81 percent achievement rate was the amount of radio airtime
devoted to civic education and public information. The SpO Team Leader explained that
there were sufficient materials to meet the target but electrical power outages and
problems with backup generators reduced the total amount of radio airtime in the
country.

The results for three indicators fell well below targets with two having achievement levels
of 67 and 61 percent, and another having a 38 percent achievement level. According to
SpO Team Leaders, lower results were due to unexpected factors and the changing
post-conflict environment. For example the achievement level for the indicator
measuring the number of persons provided nation building skills training was only 38
percent of the target in FY 2004. The SpO Team Leader stated that one factor



                                                                                             6
contributing to the less-than-expected results was the difficulty in finding participants to
enroll in the training. Once the country began to stabilize, persons who were displaced
during the war began to move back to their former communities and away from the
areas targeted by the program. Also, as stability continued, many people were not
willing or able to commit to attending training sessions three times a week for a 6-month
period. Many opted instead to seek out employment or other means of livelihood.
Another indicator measured the participation of ex-combatants and war-affected youth in
civic works, and for FY 2004, the achievement level was 61 percent. However, the SpO
Team Leader said that the actual results may not be fully representative of the program’s
results, as ex-combatants were hesitant to disclose their identity and affiliation with any
of the armed or rebel forces.

While the preceding discussions refer to achievements made for FY 2004 under Phase
1, we also concluded that the Mission is achieving its intended results under Phase 2.
Overall the implementing partners were meeting their work objectives based on reviews
and comparison of the implementing partners’ annual work plans and most recent
quarterly progress reports (as of June 30, 2005) as well as our site visits to directly
observe various activities implemented by the partners.

As indicated previously, although results for only 13 out of 21 of the indicators for FY
2004 were above the 90 percent achievement level, we consider that the intent of the
strategy and the program’s goals were being met. During our site visits, we observed
activities first-hand and talked with program recipients and community leaders involved
in both FY 2004 and FY 2005 activities. It was evident that the program activities of
USAID/Sierra Leone’s Transition Strategy had made an impact and benefited the
communities in its targeted areas. For instance, the village chief of Pendembu, in the
Eastern District of Kailahun, stated during a site visit that considering Sierra Leone’s
recent history, the transition program activities have achieved remarkable results. He
specifically noted the fact that now ex-combatants, refugees, and non-combatants are
back in their communities, working side by side for a common goal, and sharing
businesses – something he never expected to see. He further stated that as a result of
training sessions he attended on Nation Building and Leadership under the SpO1
Reintegration Program, he had incorporated women and youth in the chiefdom’s
decision-making process and women now hold responsible positions in the chiefdom’s
governing body.

In addition, members of the mining cooperative formed through the Integrated Diamond
Management Program noted achievements that have occurred as part of the Democracy
and Governance Program. Among other things, the representatives stated that the
cooperatives have entrenched peace-building in Sierra Leone. Each cooperative is
comprised of between 60 to 70 members who are ex-combatants from different sides of
the conflict, but now have come together to form these groups. According to the
members we spoke with, they believe the formation of these cooperatives has
strengthened the peace and peace-building process. The members also noted the
program has provided financial benefits in opening up legitimate markets as well as
educational benefits through training programs to identify and establish the value of
stones in the mines. Finally, they noted that the program has helped many participants
move past the trauma of the conflict by offering opportunities for establishing a
livelihood.

Therefore, based on the impact and results we observed in the field, as well as the


                                                                                          7
reported results, we conclude that USAID/Sierra Leone’s transition strategy achieved its
intended results. However, monitoring and reporting are important components of
managing programs to ensure results are achieved. Noted exceptions were found in
these two areas and discussed below.



Better Documentation of
Monitoring Activities Needed

Summary: Although both Team Leaders for the Special Objectives were actively
monitoring partner activities, we found they did not systematically document or
maintain other evidence of their monitoring activities. This occurred because
there were no procedures specifically requiring documentation of such actions.
The Government Accountability Office’s Standards for Internal Control in the
Federal Government states that all transactions and other significant events need to
be clearly documented and that the documentation needs to be readily available for
examination. This lack of documentation of partner contact could result in key
information not being available to current or future Mission management.


Both SpO Team Leaders stated that they were very proactive in monitoring their
program activities. They indicated they had ongoing and frequent contact with the
implementing partners and made regular visits to the partners’ offices and the sites
where program activities were being implemented. The Team Leaders also mentioned
that they visited partner offices twice a year to validate the data in the partners’ progress
reports. Staff from the key implementing partners independently corroborated this,
indicating that the two Team Leaders were very involved in all aspects of the program
activities. However, we found that the Team Leaders did not always document these
communications and interactions. For example, site visits were rarely documented and
we found no documentary evidence that the Team Leaders validated partner data during
visits to the partner offices.

According to the Team Leaders, the lack of documentation occurred for several reasons.
First, the Team Leaders did not realize the extent to which partner contacts should be
documented as there were no procedures in place to specifically require SpO teams to
document and maintain records of their monitoring activities of the partners. Secondly,
the Team Leaders attributed the lack of documentation to staff time constraints.
Currently USAID/Sierra Leone is comprised of only four staff members and given their
workload and the frequency of required travel to USAID/Guinea, lower priority was
placed on administrative activities such as documenting meetings. However, an
additional position for the Mission has been authorized and the staff expects their
workload to lessen once the position is filled.

USAID’s Automated Directives System (ADS) section E303.5.13 states that site visits
are an important part of effective award management and recommends that reports of
the visits be maintained in official files. Additionally, the Government Accountability
Office’s Standards for Internal Control in the Federal Government states that all
transactions and other significant events need to be clearly documented and that the
documentation needs to be readily available for examination. We believe that site visits


                                                                                           8
and validation of data are important events in the overall monitoring process and should
be documented. Furthermore, without formally documenting visits and other key
encounters with implementing partners, important program information may not be
available to Mission management, and could ultimately be lost if any of the staff were to
leave USAID.

To address this weakness, we make the following recommendation.

   Recommendation No. 1: We recommend that USAID/Sierra Leone develop
   specific procedures to require that the Special Objective Teams document key
   contacts with implementing partners including visits to monitor activities and
   validate data.


Verification of Annual Report
Data Should Be Conducted and
Documented

Summary: A review to verify the accuracy of seven indicators reported in the FY
2005 Annual Report revealed that two of the results were materially overstated.
Additionally, there was a lack of documentation to support calculation and
assumptions used to develop results included in the Annual Report. These errors
occurred because USAID/Sierra Leone had not developed procedures to ensure
that data is reviewed or cross-checked as part of the reporting process or to
document such reviews as described in USAID Guidance. As a result, the Mission
reported inaccurate data to Washington—a vulnerability that continues to exist.


When determining the accuracy of the data reported in the Mission’s FY 2005 Annual
Report, we found that the results for two of the seven reported indicators were materially
overstated. This overstatement occurred due to an error made by the SO Team Leader
who mistakenly extracted cumulative life-of-project results from two partner reports
rather than results for the one fiscal year. This resulted in a significant inflation of the
results achieved as shown in the Annual Report. For example, for the indicator
measuring the number of participants provided with nation building skills training, the
Annual Report shows an actual result of 302, 101 percent of its target of 300. However
when using the correct figure for the fiscal year, the actual achievement level is 38
percent. Another weakness found was that the SpO Team Leader did not maintain
documentation to support the methodology used to develop results or the calculations of
data reported in the FY 2005 Annual Report. For example, when we asked the SpO1
Team Leader for supporting documentation to verify the results reported in the FY 2005
Annual Report, it took more than a day for him to go through the partner progress
reports and re-create the reported data. Although, the Team Leader maintained the
partners’ reports, he did not document and maintain the calculations and methodology
used to develop the data reported.

These errors occurred because USAID/Sierra Leone had not developed procedures to
ensure that data was reviewed or cross-checked as part of the reporting process, and
that calculations and assumptions were documented. The SpO Team Leaders indicated


                                                                                          9
they did not realize the extent to which reported data and calculations should be
documented.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that all transactions and other significant events need to be clearly
documented and that the documentation needs to be readily available for examination.
USAID’s Center of Development Information and Evaluation Performance Monitoring
and Evaluation Tips (TIPS) Number 12, also emphasizes the importance of
documentation, stating that proper documentation is a process that facilitates the
maintenance of quality performance indicators and data, and should provide an
opportunity for independent checks concerning the quality of the performance-
measurement system. According to TIPS Number 12, documentation includes recording
important considerations and assumptions related to performance indicators, as well as
the detailed specifications for each indicator and its measurement, and stresses the
importance of proper documentation due to considerable staff turnover within USAID.

The lack of procedures for reviewing or cross-checking data included in the Annual
Report and documenting and maintaining the methodology used to calculate results and
other data included in the Annual Report resulted in USAID/Sierra Leone reporting
inaccurate data to USAID/Washington, and increases its vulnerability to reporting
inaccurate and misattributed data in the future.       Additionally, without formally
documenting key elements and factors used to develop reported results, important
program information may not be available to Mission management and ultimately can be
lost if team staff leave USAID.

Therefore, to address these weaknesses, we make the following recommendation:

   Recommendation No. 2: We recommend that USAID/Sierra Leone develop
   specific procedures to require the Special Objective Teams and Program Office
   to cross-check and verify reported data and to document assumptions,
   calculations, and verifications in the program files.




                                                                                    10
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Sierra Leone agreed with all of the findings and recommendations in the draft
audit report, and indicated that appropriate actions would be taken to address the two
recommendations. Therefore, management decisions have been reached for both
recommendations. However, because the planned actions have not been completed by
the issuance date of this report, the two recommendations remain open until final actions
are taken by USAID/Sierra Leone and coordinated with USAID’s Audit Performance and
Compliance Division within the Management Bureau’s Office of the Chief Financial
Officer (M/CFO/APC) The Mission anticipates final actions to be completed by the end of
January 2006.

Recommendation No. 1 states that USAID/Sierra Leone develop specific procedures to
require that the Special Objective Teams document key contacts with implementing
partners including visits to monitor activities and validate data. The Mission agreed with
this recommendation and is developing procedures to be issued in a Mission Order on
Performance Management. Activity Managers and Cognizant Technical Officers (CTOs)
will use the procedures to document communications and interactions with partners
which include site visits and validation of partner data. The Mission Order is to be
finalized and approved by January 30, 2006.

Recommendation No. 2 states that USAID/Sierra Leone develop specific procedures to
require the Special Objective Teams and Program Office to cross-check and verify
reported data and to document assumptions, calculations, and verifications in the
program files. The Mission agreed with this recommendation and is developing
procedures to be formalized in a Performance Monitoring Mission Order to ensure that
data is reviewed or cross-checked. These procedures include assigning responsibility to
the Monitoring and Evaluation Specialist for assuring data accuracy and verifying
assumptions with the CTOs, and documenting sources of data reported in the Annual
Report. The Mission Order is to be finalized and approved by the end of January 2006.

Management’s comments are included in their entirety in Appendix II.




                                                                                       11
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards to answer the following two audit objectives:

   (1) Did USAID/Sierra Leone manage the transition strategy from Phase 1 to Phase 2
       efficiently?

   (2) Did USAID/Sierra Leone’s transition strategy achieve its intended result?

The audit was conducted at USAID/Sierra Leone in Freetown and at USAID/Guinea in
Conakry from August 29 to September 16, 2005. As part of the audit, visits to
implementing partners were made in Freetown as well as to other sites within Sierra
Leone (the three Eastern districts of Kailahun, Kono, and Koinadugu, and the town of
Tongo Fields).

In planning and performing the audit we assessed the effectiveness of internal control
related to managing the extension of the transition strategy from Phase 1 to Phase 2,
and managing the achievement of intended results, which include monitoring and
reporting program activities. For audit objective 1, we identified pertinent internal control
such as (1) maintaining documentation related to the extension of the transition strategy,
and (2) following USAID guidance and other regulations. For audit objective 2, we
identified pertinent internal control such as (1) maintenance of documentation of each
SpO teams’ contact with implementing partners, (2) the SpO teams’ review of the
implementing partners’ quarterly progress reports, and (3) maintenance of
documentation that is readily available to support reported results.

Additionally, we used USAID guidance—including the Automated Directives System,
mission reports, and other regulations and internal policies and procedures—as the
basis for assessing how well the Mission managed the extension of the transition
strategy from Phase 1 to Phase 2, monitored and reported activities, assessed the
indicators used, evaluated the impact of its activities against intended targets, and
learned from the results. Finally, we reviewed the latest Federal Managers Financial
Integrity Act certification submitted by the Mission for any material control weaknesses
relating to the transition program.

The scope of audit objective 1 included the planning, development, and administrative
processes in extending the transition strategy from Phase 1 to Phase 2. The scope of
audit objective 2 included program activities in FY 2004 and FY 2005 up to the end of
our audit.


Methodology
To answer audit objective 1, we reviewed key program documents such as the Mission’s
Annual Reports, Performance Monitoring Plans, Phase 1 and Phase 2 Strategy



                                                                                          12
documents, assessments, funding instruments, and documentation maintained by
Mission staff. We also interviewed responsible personnel at the USAID Missions in
Sierra Leone and Guinea concerning the development and design of the Phase 2
strategy and the processes taken to extend the transition strategy.

To answer audit objective 2, we reviewed funding instruments, implementing partner
progress reports and annual work plans, the Mission’s Annual Reports, Performance
Monitoring Plans, and documentation maintained by Mission staff. We also interviewed
responsible personnel at the USAID missions in Sierra Leone and Guinea and
implementing partner staff concerning program activities, achievement of results,
monitoring and reporting of activities, and data-accuracy issues. In addition, we
conducted field visits to talk to program recipients and observe and assess activities.

For FY 2004 program activities, to determine the significance of our findings, in general,
we considered targets to be met if indicators had achieved at least 90 percent of their
planned results. In assessing the extent to which the program met its intended results
for program activities for FY 2005 up to the end of our audit, we compared implementing
progress reports with work plans. In addition to looking at the data, through our site
visits, we took into consideration our observations of the impact of activities on targeted
communities and viewpoints from program recipients and community leaders.

To verify the accuracy of performance results reported to USAID/Washington in the FY
2005 Annual Report (for activities conducted in FY 2004), we traced reported data back
to source documentation provided by the implementing partner to the Mission, such as
progress reports.    We also traced the partners’ data back to their supporting
documentation for results of indicators reported in their progress reports to determine the
accuracy of reported data. Our verification included examining source documents,
including both manual and electronic records.

In assessing data quality and verifying and validating the performance data to source
documentation, we used a materiality threshold of 1 percent for transcription accuracy
and 5 percent for computation accuracy.




                                                                                        13
                                                                              APPENDIX II



MANAGEMENT COMMENTS

MEMORANDUM

TO:            Lee Jewell III
               Regional Inspector General
               Dakar, Senegal

FROM:          Jack Winn, USAID/Sierra Leone, Mission Director /s/

SUBJECT:       USAID/Sierra Leone’s Responses to IG Audit of its
               Transition Strategy
               (Audit Report No.7-636-06-001-P)

Ref:           RIG/Dakar Memo Dated 11/07/05

DATE:          December 1, 2005


USAID/Sierra Leone acknowledges receipt of the Inspector General’s draft audit report
of the Sierra Leone program entitled, “Audit of USAID/Sierra Leone’s Management of
its Transition Strategy.” USAID/Sierra Leone appreciated the participatory manner in
which the audit was conducted, especially the Auditors’ sharing of their observations in
every step of the audit, and giving the Sierra Leone Team the opportunity to comment on
their findings. USAID/Sierra Leone would like to thank the IG auditors for their
thoroughness and professionalism and is in agreement with the audit’s two
recommendations for corrective actions to address identified weaknesses. Below are
USAID/Sierra Leone’s responses to the two recommendations.

1- Better Documentation of Monitoring Activities Needed.

Recommendation: We recommend that USAID/SL develop specific procedures to
require the Special Objective Teams document key contacts with implementing
partners including visits to monitor activities.

Response:
The USAID/Guinea Program Office is developing procedures to be issued in a forth-
coming Mission Order on Performance Management that activity managers in both
Guinea and Sierra Leone will use during site visits to document communications and
interactions with partner organizations as well as the validation of partner data. This will
include a site visit form that CTOs and Activity Managers are to fill out to document site
visits. Accordingly, information acquired from site visits will be submitted to the


                                                                                         14
Program Office as well as maintained in CTO office files. The Mission Order will be
finalized and approved by January 30, 2006.

2- Verification of Annual Report Data Should Be Conducted and Documented

Recommendation: We recommend that USAID/Sierra Leone develop specific
procedures to require the Special Objective Teams and the Program Office to cross-
check and verify reported data and to document assumptions, calculations and
verifications in the program files.

Response:
With the assistance of USAID/Guinea’s Program Office, procedures will be developed
for the Sierra Leone Program to ensure that data are reviewed or cross checked to
minimize errors prior to the submission of the Annual Report. The Monitoring and
Evaluation Specialist will be responsible for assuring data accuracy and verifying
assumptions for the Sierra Leone program with CTOs. In addition, the Monitoring and
Evaluation Specialist will be responsible for documenting sources of data reported in the
Annual Report, and will serve as the Mission’s point person in the case of an audit. The
above procedures will be formalized in a Performance Monitoring Mission Order to be
finalized and approved by the end of January 2006.

Implementation of the above procedures in both responses will constitute official
compliance with USAID Guidance TIPS Number 12 which emphasizes the importance of
documentation, including the recording of important considerations and assumptions
related to performance indicators, as well as the detailed specifications for each indicator
and its measurement. In addition, applying the above procedures will substantiate the
Government Accountability Office’s Standards for Internal Control in the Federal
Government which states that all transactions and other significant events need to be
clearly documented and that the documentation needs to be readily available for
examination.”


We take this opportunity to thank you and members of your staff for the professional
work performed during this audit.


Cc:    - Idriz Diaz, RLA, USAID/Senegal
       - L. Bogus, RCO
       - M. Broderick, S/L Program Officer
       - S. Christine, S/L Program Manager
       - Ramses Gauthier, Controller




                                                                                         15
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
